No.

In The
SUPREME COURT OF THE UNITED STATES
LESLIE T. JACKSON,
Petitioner,
v.
DISTRICT OF COLUMBIA
Respondent.

\

To The District Of Columbia Court Of Appeals
A

\

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for writ
of certiorari contains 9000 words.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 14, 2019.

Leslie T. Jackson

